• I

/V

v\ mm

•* i

:

i

wrA’.^/

^>srS&'
\
Supreme Court
of

STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

TRACIE K. LINDEMAN
Clerk of the Court

June 16, 2021

RE :

STATE OF ARIZONA v GETTUS LEROY MINTZ
Arizona Supreme Court No. CR-21-0057-PR
Court of Appeals, Division One No. 1 CA-CR 20-0331 PRPC
Maricopa County Superior Court No. CR2009-005503-001

GREETINGS:
The -following action was taken by the Supreme' Court of the State
of Arizona on June 16, 2021, in regard to the above-referenced
I
cause: '
ORDERED: Petition for Review = DENIED.
A panel composed of Chief Justice Brutinel, Justice Bolick,
Justice Lopez, and Justice Beene participated in the
determination of this matter.
Tracie K. Lindeman, Clerk
TO:
Linley Wilson
Jeffrey R Duvendack
Gettus Leroy Mintz, ADOC 040014, Arizona State Prison,
Cibola Unit
Yuma
Amy M Wood
tel

NOTICE: NOT FOR OFFICIAL PUBLICATION.
UNDER ARIZONA RULE OF THE SUPREME COURT 111(c), THIS DECISION IS NOT PRECEDENTIAL
AND MAY BE CITED ONLY AS AUTHORIZED BY RULE.

IN THE

Arizona Court of Appeals
Division One
STATE OF ARIZONA, Respondent,
v.
GETTUS LEROY MINTZ, Petitioner.
No. 1 CA-CR 20-0331 PRPG
FILED 2-2-2021
Petition for Review from the Superior Court in Maricopa County
No. CR2009-005503-001
The Honorable Timothy J. Ryan, Judge
REVIEW GRANTED; RELIEF DENIED
COUNSEL
Gettus Leroy Mintz, San Luis
Petitioner

MEMORANDUM DECISION
Presiding Judge Jennifer M. Perkins, Judge Randall M. Howe, and Judge
Maria Elena Cruz delivered the decision of the Court.

i

V

STATE v.MINTZ
Decision of the Court
PER CURIAM:
Petitioner Gettus Leroy Mintz seeks review of the superior
1fl
court's order denying his petition for post-conviction relief, filed pursuant
to Arizona Rule of Criminal Procedure 32.1. This is petitioner's fourth
petition.
Absent an abuse of discretion or error of law, this court will
not disturb a superior court's ruling on a petition for post-conviction relief.
State v. Gutierrez, 229 Ariz. 573, 577, f 19 (2012). It is petitioner's burden to
show that the superior court abused its discretion by denying the petition
for post-conviction relief. See State v. Poblete, 227 Ariz. 537, 538, f 1 (App.
2011) (petitioner has burden of establishing abuse of discretion on review).

12

We have reviewed the record in this matter, the superior
court's order denying the petition for post-conviction relief, and the petition
for review. Petitioner has not established an abuse of discretion.

13

14

For the foregoing reasons, we grant review but deny relief.

AMY M. WOOD • Clerk of the Court
FILED: AA

2

Clerk of the Superior Court
*** Electronically Filed ***
06/09/2020 8:00 AM

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
06/08/2020

CR2009-005503-001 DT

CLERK OF THE COURT
A. Goodwin
. Deputy

HONORABLE TIMOTHY J. RYAN

JEFFREY R DUVENDACK

STATE OF ARIZONA
v.

GETTUS LEROY MINTZ
# 040014 ASPC YUMA CIBOLA
P O BOX 8909
SAN LUIS AZ 85349

GETTUS LEROY MINTZ (001)

COURT ADMIN-CRIMINAL-PCR
JUDGERYAN

RULE 32 PROCEEDING DISMISSED
Pending before the Court are Defendant’s Motion for Post-Conviction Y-STR DNA
Testing of Evidence filed November 26, 2019 (filed less than one month after the minute entry
denying Defendant’s third Rule 32 proceeding), a document captioned as “JUDICIAL NOTICE
PURSUANT TO RULE 81 CODE 2.2 PRESENTING FORENSIC MISCONDUCT REQUEST
RELIEF AND FINDING BY CONCLUSIONS OF LAW” filed December 16, 2019, a
Supplement to Petition for “JUDICIAL NOTICE” FORENSIC MISCONDUCT filed on
December 26, 2019, SUPPLEMENT TO PETITION FOR “JUDICIAL NOTICE” FORENSIC
MISCONDUCT filed on December 27, 2019. Amongst these rambling pleadings is a request for
additional DNA testing. This has been repeatedly addressed and denied in prior proceedings, so
this Court is at a loss as to why the State was ordered to respond, as the pleadings reference
above should have been summarily dismissed without requiring the State to respond.
The State was ordered to respond, which the State filed on April 24,2019. The matter
was assigned to this Division on May 1,2019, of which this Division received actual notice on
May 4, 2019. Even though this Division was assigned for the PCR. as of that date, other orders
Docket Code 167

Form ROOGi

Page 1

